<html>
<title> - TITLE II: 21ST CENTURY WORKFORCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                    TITLE II: 21ST CENTURY WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 23, 2015
                               __________

                           Serial No. 114-33






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                      
                                    ______

                     U.S. GOVERNMENT PUBLISHING OFFICE 

96-084                       WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)













  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    64
Hon. Bill Flores, a Representative in Congress from the State of 
  Texas, prepared statement......................................    65
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    65

                               Witnesses

Tracy Brundage, Vice President, Workforce Development and 
  Continuing Education, Pennsylvania College of Technology, on 
  Behalf of Shale Net............................................     5
    Prepared statement...........................................     8
Rick Jarvis, Vice President of Field Construction, Morrow-Meadows 
  Corporation, on behalf of National Electrical Contractors 
  Association....................................................    18
    Prepared statement...........................................    20
Ramanan Krishnamoorti, Chief Energy Officer, University of 
  Houston........................................................    25
    Prepared statement...........................................    27
Monica Martinez, President, Hispanics in Energy..................    36
    Prepared statement...........................................    38
Charles Wilson, Senior Reactor Operator Trainer, Managing 
  Partner, CW Consulting Group, LLC..............................    46
    Prepared statement...........................................    48
    
    
    
    
    
    
    
    
    
    
    
    

 
                    TITLE II: 21ST CENTURY WORKFORCE

                              ----------                              


                        THURSDAY, APRIL 23, 2015

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Shimkus, Pitts, 
Latta, Harper, McKinley, Johnson, Long, Ellmers, Flores, 
Mullin, Hudson, Rush, McNerney, Green, Doyle, Castor, Sarbanes, 
and Loebsack.
    Staff present: Nick Abraham, Legislative Associate, Energy 
and Power; Gary Andres, Staff Director; Charlotte Baker, Deputy 
Communications Director; Will Batson, Legislative Clerk; 
Leighton Brown, Press Assistant; Allison Busbee, Policy 
Coordinator, Energy and Power; Patrick Currier, Counsel, Energy 
and Power; Tom Hassenboehler, Chief Counsel, Energy and Power; 
Brandon Mooney, Professional Staff Member, Energy and Power; 
Caitlin Haberman, Democratic Professional Staff Member; Rick 
Kessler, Democratic Senior Advisor and Staff Director, Energy 
and Environment; and John Marshall, Democratic Policy 
Coordinator.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning. Today we are having a hearing on a draft bill, 
Title II of the 21st Century Workforce, and we have a 
distinguished panel of witnesses with us this morning. And I am 
not going to introduce you now, but I am going to introduce you 
just prior to your 5-minute statement. But we do thank you for 
joining us this morning. And I would like to recognize myself 
for 5 minutes for an opening statement.
    First, I want to thank Bobby Rush as well as Bill Flores, 
Gene Green, and Richard Hudson for sponsoring the bipartisan 
discussion draft that we will be talking about today entitled 
the 21st Century Workforce. This discussion draft will become 
part of our larger energy legislation that we will be rolling 
out in the weeks ahead. I have already complimented you, Bob, 
and thank you for coming.
    As we all know, the domestic energy sector is undergoing 
dramatic changes. Thanks to American innovations, our decades 
of declining oil and natural gas production have given way to 
tremendous increases in output. The Energy Information 
Administration recently projected that the United States will 
eliminate net energy imports by the year 2030. This abundant 
and affordable energy is sparking new manufacturing activity in 
the United States.
    America's energy and manufacturing renaissance is also 
leading to a jobs renaissance. Energy and energy-related 
employment has been one of the few economic bright spots in 
recent years, everything from those employed discovering and 
producing energy to those constructing and operating the 
infrastructure to transport it, to the new factories that are 
powered by it.
    But America's energy transformation has some problems 
because we are now finding that we need more trained workers in 
these areas, skilled workers. So there are many opportunities 
out there, and this is what this legislation is all about, 
trying to assist in the development of these new job 
opportunities.
    As you know, we have also had a lot of people lose their 
job as we make this transformation in energy. Certainly, in the 
coal sector they have been hit very hard. And so we have a 
great opportunity here. I know the Department of Energy has 
already expressed an interest in developing a jobs program, but 
we feel like it is important to provide some guidance in that, 
and as I said earlier, Bobby Rush has been talking about this 
for some time, and actually, his draft was the basis for this 
Title II.
    So we have a unique opportunity here in our broader energy 
bill to address this issue, and that is what we hope to do. And 
we hope that your testimony will provide us some insights on 
your thoughts on this important subject.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    I would like to thank my good friend Bobby Rush as well as 
Bill Flores, Gene Green, and Richard Hudson, for sponsoring the 
bipartisan discussion draft that we will be talking about 
today, entitled 21st Century Workforce. This discussion draft 
will become part of our larger energy legislation that we will 
be rolling out in the weeks ahead. I also thank our witnesses 
for appearing before us today.
    As we all know, the domestic energy sector is undergoing 
dramatic changes. Thanks to American innovations in hydraulic 
fracturing and horizontal drilling, decades of declining oil 
and natural gas production have given way to tremendous 
increases in output. The Energy Information Administration 
(EIA) recently projected that the U.S. will eliminate net 
energy imports by 2030. This abundant and affordable energy is 
sparking new manufacturing activity in the U.S.
    America's energy and manufacturing renaissance is also 
leading to a jobs renaissance. Energy and energy-related 
employment has been one of the few economic bright spots in 
recent years--everything from those employed discovering and 
producing energy, to those constructing and operating the 
infrastructure to transport it, to the new factories that are 
powered by it.
    But America's energy transformation has taken the job 
market by surprise. Many in need of work do not have the skills 
required to fill these high-paying opportunities, and the 
Department of Energy's job programs do not fully reflect 
current realities.
    That is the problem the 21st Century Workforce discussion 
draft seeks to address. It updates DOE's energy training 
programs to better serve today's energy market and today's job 
seekers. Just as America's energy situation is changing, so is 
its workforce. We have growing numbers of minorities 
participating in labor markets, but these groups have been 
historically underrepresented in the energy sector. The 21st 
Century Workforce bill would strengthen the outreach to these 
potential energy workers. Our goal is nothing less than to have 
the best trained and most diverse energy industry in the world.
    In addition, there are displaced workers, such as those 
once employed in the coal sector, who are now looking for new 
opportunities in energy. Of course, my hope is to get as many 
of these men and women employed again in the coal industry, but 
for the others the discussion draft has programs to help them 
transition into other energy careers.
    The discussion draft does not create new programs out of 
whole cloth, but builds upon the base that already exists at 
DOE. And it applies to a wide variety of programs and 
partnerships with 4-year colleges, community and technical 
colleges, and high schools as well as other governmental and 
private institutions involved in energy.
    Now, I know that on this subcommittee we don't always agree 
on which energy source is the best. We have proponents of wind 
and solar as well as proponents of fossil fuels and nuclear 
power. However, this discussion draft is fuel neutral--it does 
not seek to target any particular energy source, but rather 
gives DOE the flexibility to allocate its resources to wherever 
the job opportunities are. And the focus goes well beyond 
energy production to also include downstream opportunities such 
as those in infrastructure that were highlighted in DOE's 
recent Quadrennial Energy Review as well as those in the 
manufacturing sector that are made possible by affordable 
domestic energy.
    Energy and energy-related jobs are critical to American 
economic growth in the years ahead. The career opportunities 
are many, and the 21st Century Workforce discussion draft will 
go a long way towards ensuring that we have qualified Americans 
to fill them.

    Mr. Whitfield. And with that, at this time I would like to 
recognize the gentleman from Illinois for his opening 
statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important hearing, and I must commend you and your staff 
for working with my office on the 21st Century Workforce bill. 
That is the focus of what we will be discussing here today.
    Mr. Chairman, I hope that the same spirit of goodwill and 
negotiations that the minority and the majority sides that have 
displayed in working on this discussion draft can be carried 
forth as we continue to work on the remaining sections of a 
broader bipartisan comprehensive energy bill. The Nation is in 
need, waiting for it, and a Nation in need deserves a 
comprehensive energy bill.
    I am also optimistic knowing that both sides continue to 
work diligently at a good faith on hammering out some of the 
more contentious outstanding issues so that hopefully we can 
bring forth a bill that helps move our Nation's energy policy 
forward and restores this subcommittee's reputation as a true 
model of what bipartisanship can accomplish.
    Mr. Chairman, the 21st Century Workforce legislation 
addresses an issue that is neither partisan nor bipartisan, but 
rather it is non-partisan because this is an issue that 
benefits communities, benefits industry, and benefits the 
overall American economy. This bill brings together government 
agencies including the National Labs, the energy and 
manufacturing industry, unions, schools, community colleges, 
and universities among others and promotes collaboration to 
make sure that we are tapping into a wealth of under-utilized 
talent and training and preparing workers for the energy and 
manufacturing jobs both presently and of our future also.
    Mr. Chairman, this bill is important because it matches up 
the needs of an industry and a willingness and able workforce, 
and in the process it helps start new cycles of hope, new 
cycles of opportunity for groups who have in many cases been 
overlooked and underserved. In fact, Mr. Chairman, it is my 
hope, my sincere hope, that if and when this bill is enacted, 
it would be instrumental in helping to create individuals with 
similar stories so that those we hear from today, their stories 
will be repeated time and time and time again, stories I might 
add like Mr. Wilson's from the Englewood community that is 
located in my district in Chicago, Mr. Wilson, who beat the 
odds and turned his life into an inspirational profile that can 
serve as a motivation to this Nation and to this Nation's young 
men all across this Nation.
    Mr. Chairman, this legislation can help to open new 
pathways to jobs, new pathways to careers, new pathways 
entrepreneurial opportunities for women, for minorities, and 
for our veterans while also helping to move our overall economy 
forward by promoting STEM education as well as developing 
educational guidelines for institutions at all levels, from 
elementary to post-graduate university programs. This bill 
would help to ensure that we are training individuals with the 
skills necessary to work in the energy and manufacturing-
related jobs including energy efficiency, energy conservation, 
from blue-collar workers to managers to supervisors up to and 
including new entrepreneurs and business creators.
    So Mr. Chairman, again, I applaud you for holding this 
hearing today as well as working with me to make this issue a 
priority in what we hope will be a broader bipartisan, non-
partisan energy and infrastructure bill. I look forward to 
engaging the witnesses that we have here today, and I welcome 
the witnesses. And with that, I yield back the balance of my 
time.
    Mr. Whitfield. Thank you. The gentleman yields back the 
balance of his time. Mr. Upton is not here. Does anyone on our 
side of the aisle, they would like to take any of his time. OK. 
I see the gentleman from Texas is recognized for an opening 
statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for holding the hearing today, and I want to 
thank our witnesses for coming and testifying today. 
Specifically, I would like to acknowledge Dr. Ramanan 
Krishnamoorti, the Chief Energy Officer at the University of 
Houston. Being a graduate of University of Houston College of 
Business and going back there to law school, I can't say too 
many nice things about it because it gave me the education I 
have. And what Dr. Krishnamoorti and his colleagues are doing 
in the energy field are amazing. I stated before; we can't say 
it enough. Texas is leading the Nation producing results. This 
time it is our energy workforce development. Thanks to the 
University of Houston, San Jacinto Community College, 
ExxonMobil, and other stakeholders, Houston is launching a pad 
for efforts like these contained in this legislation today. The 
University of Houston partnered with the Energy Institute High 
School to engage high school students and get them interested 
in working in the energy field. The Texas Gulf Coast Community 
College Consortium is addressing the workforce need of our 
industries. The Community College Petrochemical Initiative is a 
public/private partnership that is unique to the industry. 
Through programs like the University of Houston Partner, the 
TGCCCC and CPI, industry job opportunities become realities.
    I look forward to working with my colleagues on this 
legislation to ensure that success that we have in East Harris 
County where I represent the refineries and chemical plants 
continues and is duplicated nationwide. And I yield back my 
time. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back, and that 
concludes the opening statements. So now we will get to our 
panel of witnesses. Once again, thanks for being with us this 
morning. I will introduce you individually and give you each 
opportunity for 5 minutes for an opening statement.
    So our first witness is Dr. Tracy Brundage who is the Vice 
President of the Workforce Development and Continuing Education 
at Pennsylvania College of Technology on behalf of Shale NET. 
So Dr. Brundage, you are recognized for 5 minutes, and the 
little red lights will come on when your 5 minutes is up. There 
are two little boxes on the desk, but we do look forward to 
your testimony. And thanks for being with us, and just be sure 
to turn the microphone on so we all can hear.

    STATEMENTS OF TRACY BRUNDAGE, VICE PRESIDENT, WORKFORCE 
 DEVELOPMENT AND CONTINUING EDUCATION, PENNSYLVANIA COLLEGE OF 
TECHNOLOGY, ON BEHALF OF SHALE NET; RICK JARVIS, VICE PRESIDENT 
OF FIELD CONSTRUCTION, MORROW-MEADOWS CORPORATION, ON BEHALF OF 
     NATIONAL ELECTRICAL CONTRACTORS ASSOCIATION; RAMANAN 
  KRISHNAMOORTI, CHIEF ENERGY OFFICER, UNIVERSITY OF HOUSTON; 
 MONICA MARTINEZ, PRESIDENT, HISPANICS IN ENERGY; AND CHARLES 
 WILSON, SENIOR REACTOR OPERATOR TRAINER, MANAGING PARTNER, CW 
                     CONSULTING GROUP, LLC

                  STATEMENT OF TRACY BRUNDAGE

    Ms. Brundage. Good morning. Thank you, subcommittee 
members, for the opportunity to speak about the need for 
workforce development and training in energy and related 
industries. My name is Tracy Brundage. I am the Vice President 
for Workforce Development at the Pennsylvania College of 
Technology, a special mission affiliate of Penn State committed 
to applied technology education.
    My testimony today will focus on Shale NET, a partnership 
of training providers, economic development, the public 
workforce system and employers who responded to the call from 
the energy industry for a trained workforce.
    When we ask executives in the gas and oil industry what 
keeps them up at night, many will respond by expressing their 
concerns regarding the great crew change. The energy industry 
is facing a mass exodus of talent and experience. In order for 
the industry to succeed in the 21st century, it must continue 
to recruit and retain talent from a more diverse labor pool. 
The industry must be prepared for the inevitable departure of a 
large number of workers who are retiring.
    To address these challenges, industry, government, the 
public workforce investment system, economic development 
agencies, education, and training providers must create the 
kind of educational infrastructure that will provide a 
qualified workforce the industry needs. Our work, through Shale 
NET, over the last several years, has focused on building this 
infrastructure.
    In 2010 Penn College, Westmoreland County Community College 
in Pennsylvania, and 18 other training providers across Ohio, 
Pennsylvania, West Virginia, and New York came together to 
create Shale NET. We were awarded $4.96 million from the U.S. 
Department of Labor's Community-Based Job Training Grant 
Initiative to develop and implement a 3-week training program 
that exposes students to expectations of the industry related 
to job readiness skills, safety, and technical awareness.
    The curriculum was designed from input from industry, 
stressed consistency of content, and awarded competency-based 
in industry-recognized credentials. Though the program was open 
to all, special efforts were directed to recruit veterans, the 
unemployed, and underemployed. The results for Shale NET are 
stellar. Over 14,000 individuals explored the Talent Match Web 
site which provides realistic job profiles of energy 
occupations and information about the industry. Over 1,100 
completed practical training, and almost 3,500 obtained job. 
The placement rate was 79 percent, and retention three quarters 
after placement was 82 percent.
    In October 2012, Shale NET was awarded a U.S. Department of 
Labor Trade Adjustment Assistance in Community College and 
Career Training, known as TAACCCT, Round II grant for $14.96 
million which combines the short-term programming of the 
initial Shale NET grant with stackable college credit 
offerings.
    Shale NET is a best-practice model that can be deployed and 
implemented in other areas because the curriculum is 
competency-based, developed with input from industry, 
consistent, easily replicated, and flexible, dependent upon 
industry needs. The success of Shale NET is a direct result of 
strong partnerships with employers and trade associations, 
workforce investment boards, one stops, economic development 
agencies such as the Pittsburgh-based Allegheny Conference on 
Community Development, and local governments who share a common 
desire to place qualified candidates with employers and family-
sustaining careers.
    Several innovative strategies are being deployed by Shale 
NET to bring blended technical curriculum to remote areas, 
veterans, and underserved populations. One strategy uses state-
of-the-art 3D immersive technology and artificial intelligence 
to assess and teach more advanced technical skills related to 
natural gas and oil production in a simulated environment. 
These methodologies create enormous cost savings for 
educational institutions, embrace leading edge technology honed 
by the U.S. Department of Defense to train and assess 
competencies and make capacity-building more feasible and 
efficient.
    For future programs that are introduced to meet energy 
workforce needs, there are several factors that are imperative: 
to establish public/private partnerships that become the 
backbone of developing a broad array of training options across 
the geography of the United States; to target federal funding 
in promoting regional collaborations that align with industry's 
multi-state operations; and to direct funding where the impact 
is greatest to support energy training initiatives that secure 
jobs for America's workforce.
    Our job is not yet done. Thanks again for this opportunity 
to speak on Shale NET's behalf.
    [The prepared statement of Ms. Brundage follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Whitfield. Thank you, Dr. Brundage. And our next 
witness is Dr. Rick Jarvis, who is Vice President of Field 
Construction, Morrow-Meadows Corporation, on behalf of the 
National Electrical Contractors Association. So, Mr. Jarvis, 
you are recognized for 5 minutes.

                    STATEMENT OF RICK JARVIS

    Mr. Jarvis. Thank you, Chairman Whitfield, Ranking Member 
Rush, and members of the subcommittee for inviting me here to 
testify today at this important hearing. On behalf of the 
National Electrical Contractors Association, the nationally 
recognized voice of the electrical construction industry, thank 
you for holding this important hearing regarding the workforce 
development needs of the energy and manufacturing sectors.
    My name is Rick Jarvis, and I serve as Vice President of 
Field Construction for Morrow-Meadows Corporation, a premier 
electrical and data communications contractor on the West 
Coast. I am pleased to be here on behalf of the National 
Electrical Contractors Association, also known as NECA. NECA is 
comprised of over 60,000 electrical contracting firms employing 
over 750,000 electrical workers and producing an annual volume 
of over $130 billion.
    Growth and diversification in the energy economy have 
created unprecedented opportunities for the electrical 
construction industry. A record 60 percent of electrical 
contractors are currently performing work on energy 
construction projects. Unfortunately, the availability of 
skilled labor and an aging workforce threatens our ability to 
continue to meet the demands of the market.
    According to the Bureau of Labor Statistics, the 
anticipated number of job openings for electricians due to 
growth and retirement from 2012 to 2022 is roughly 224,000. 
Recruiting new talent to our apprenticeship training program is 
crucial to the success and future of our industry, and we are 
working hard to recruit new talent to join the trade.
    For over 70 years, the electrical construction industry has 
been investing $100 million annually in its successful 
privately funded apprenticeship and training program. This 
joint venture between NECA and the International Brotherhood of 
Electrical Workers, the IBW, which I am still a member, gives 
participants the opportunity to learn the electrical industry 
while getting paid and without a college education. We are 
proud of the opportunities offered by our apprenticeship 
training programs around the country.
    I for one am an example of what an apprenticeship program 
can do for a person. After high school, I worked several 
different jobs before entering a 4-year IBW-NECA electrical 
apprenticeship program in 1982. During the course of my 
training, I earned college credits and learned the difference 
between a job and a career. After completing my apprenticeship, 
I rose from journeyman electrician to foreman, then to general 
foreman. In 1991 I was promoted to the general field 
superintendent for the Morrow-Meadows San Diego branch office. 
Four years later I was promoted again, this time to the general 
field superintendent of their corporate division in Los 
Angeles, California, where I now hold the position of Vice 
President of Field Construction.
    The IBW-NECA apprenticeship program has trained over 
375,000 electricians like myself including an increasing number 
of minorities, women, and veterans, a focus that we have today. 
Attracting young talent to this program and others like it is 
key to meeting workforce demands across the energy sectors.
    NECA is proud to support this committee's discussion draft 
and the committee's efforts to address the workforce 
development needs of the energy industry. I hope my own 
experience in this apprenticeship program can serve as a 
testament to the opportunities for upward mobility that 
learning a skilled trade can present. We are hopeful that as 
the Federal Government works to address the workforce 
development needs on the energy and manufacturing sectors, it 
assists our industry by actively promoting apprenticeships as a 
well-paying career option.
    We appreciate the committee's interest in collaborating 
with electrical contractors as mentioned in the draft language. 
Our training programs are all about skill development for the 
21st century workforce. I am happy to take any questions, and 
we look forward to continued work with this committee as it 
moves forward with this worthwhile process. Thank you.
    [The prepared statement of Mr. Jarvis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Whitfield. Well, thank you, Mr. Jarvis. And our next 
witness is Dr. Ramanan Krishnamoorti who is the Chief Energy 
Officer at the University of Houston. And I am excited you all 
have a Chief Energy Officer down there at the University of 
Houston. But thanks for being with us, and you are recognized 
for 5 minutes for an opening statement.

               STATEMENT OF RAMANAN KRISHNAMOORTI

    Mr. Krishnamoorti. Chairman Whitfield, Ranking Member 
Rush----
    Mr. Whitfield. And be sure to bring the microphone up close 
there.
    Mr. Krishnamoorti. My name is Ramanan Krishnamoorti, as the 
chair recognized. I am the Acting Vice President and Vice 
Chancellor for Research and Technology Transfer and the Chief 
Energy Officer at the University of Houston. The University of 
Houston is a leading Tier 1 public research university that 
offers undergraduate and graduate programs on campus and online 
to more than 41,000 students. The University of Houston is a 
designated minority-serving institution, a Hispanic-serving 
institution and was rated the second-most racially and 
ethnically diverse university in the Nation by U.S. News & 
World Report in 2010.
    UH takes full advantage of our location in Houston, the 
energy capital of the world, to offer undergraduate, graduate, 
and certificate programs in all facets of the energy industry. 
As the committee considers ways the Federal Government can 
foster education and training for energy and manufacturing 
jobs, I am pleased to speak with you today to share some of the 
innovative ways the University of Houston is working to train 
our workforce for high-skilled jobs in the energy industry.
    The oil and gas industry in particular is experiencing a 
massive misalignment of workforce needs and student education. 
It is a significant challenge to recruit and retain a 
qualified, stable workforce. The technology and skill 
requirements are rapidly changing in the industry. It is 
estimated that the skills of oil and gas workers become 
obsolete after 3 to 5 years, and the much talked-about crew 
change of the baby boomers is happening now and it is 
significantly impacting the industry's workforce.
    So what does this look like? Between now and 2017, there is 
a projected shortage of 75,000 mid-skill workers and 10,000 
highly skilled workers, and these numbers are expected to 
double over the next 5 years. That is a shortage of 20,000 
highly skilled workers. We need to rapidly upscale the mid-
skill workers to meet this deficit.
    The University of Houston has, over the last 7 years, 
embarked on a transformation to become the energy university in 
research, technology transfer, and most importantly, student 
education. We have already developed successful programs at the 
undergraduate level, like petroleum engineering, and at the 
graduate level, such as the Nation's first and only subsea 
engineering program.
    Our success is due in large part by how we have engaged the 
industry, K through 12 education such as the Energy Institute 
High School in the Greater Houston area, and community college 
education including the nine community college systems in the 
Greater Houston area. Through advisory boards and adjunct 
faculty, we have developed strategies to address actual 
workforce realities, to find quick wins for continued business 
engagement, and to recruit and retain women and minority 
students. One of these strategies is a focus on upscaling 
through certificates and stackable credentials.
    So how does stackable credentials meet workforce needs? Two 
ways: speed. It accelerates skill enhancement of workers and 
their re-deployment in areas of critical need. Second, volume. 
The stackable format provides rapid portability and scalability 
of the program. Basically, it is more high-skilled workers in 
less time.
    The stackable credential model has seen success in other 
areas of higher education, like healthcare. By stacking a 
series of certificates, a professional gains higher level 
credential or degree to advance their career. Our innovation is 
to apply this model to the energy industry's needs.
    UH has developed stackable credentials that can quickly 
scale up energy workers to earn undergraduate degrees in 
organization, leadership, and supervision. This program is 
competency based and requires, one, the completion of two out 
of three certificate programs in advanced petroleum technology, 
advanced process technology, and advanced safety technology; 
and second, the completion of two certificate programs in 
project management and organizational leadership and 
supervision.
    To launch this program, we thought creatively and 
strategically about what population to target. One of the most 
significant needs in the Greater Houston area is the scaling up 
of mid-skill workers in the process technology industry where 
over the next 3 years over $120 billion of investment will take 
place to grow the infrastructure and adapt to the cheap 
availability of unconventional oil and gas. The first cohort in 
the advanced process technology certificate in Fall 2015 will 
demonstrate the scalability and portability of our upskilling 
program and will let the Energy University build on the 
significant achievement of the entire education pipeline 
including K-12 education and community college education.
    The Committee's focus on workforce development in the 
energy sector is well placed. We are very proud of the 
initiatives the University of Houston has undertaken in our 
region and are encouraged by the Committee's efforts to 
consider ways to scale workforce development programs in the 
energy sector on a national basis. I thank you for the 
opportunity to provide testimony today and look forward to 
answering your questions.
    [The prepared statement of Mr. Krishnamoorti follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Whitfield. Thank you very much, Dr. Krishnamoorti. Our 
next witness is Monica Martinez who is the President of 
Hispanics in Energy. So thanks for being with us, and you are 
recognized for 5 minutes.

                  STATEMENT OF MONICA MARTINEZ

    Ms. Martinez. Thank you, Mr. Chairman Whitfield and Ranking 
Member Rush and members of the subcommittee. I want to thank 
you for the opportunity to testify today on Title II: 21st 
Century Workforce.
    Mr. Whitfield. Would you mind just pulling the microphone a 
little bit closer?
    Ms. Martinez. Oh, sure. I commend each of you for taking 
the time to focus on ensuring that America has a strong, 
diverse energy and manufacturing workforce. It is a privilege 
to be here today to support the bipartisan draft legislation 
that is aimed at accomplishing this critical priority.
    I am Monica Martinez, President of Hispanics in Energy. 
Hispanics in Energy is a non-partisan, non-profit organization 
whose mission is to engage Hispanic and other diverse 
communities in our Nation's energy policy dialogue and 
workforce. And thank you, Congressman Flores, for being a 
continued supporter.
    Our population is over 54 million, making people of 
Hispanic origin the Nation's largest ethnic or racial minority. 
At 11.9 million Hispanic households, we comprise roughly 10 
percent of our Nation's total households.
    For 2012, the median income of Hispanic households was 
$39,000 whereas the median income of U.S. households was 
$51,017. The poverty rate among Hispanics is roughly 25.6 
percent, whereas the national poverty rate is at 15 percent.
    I mention these figures to make sure I am illustrating the 
disparity that exists. But I also find them useful in the 
debate when we discuss jobs and economic opportunity. The best 
way to help alleviate poverty and to grow household income is 
to expand the outreach and availability of good paying jobs. 
And I believe that for Hispanics, African Americans, American 
Indians, women, and all Americans, access to economic 
opportunity in the energy field can be crucial for helping 
boost those earnings and bring about greater standards of 
living.
    We have heard about the shale revolution and even more so 
even when we talk about green energy economy. We know that 
there are job opportunities available. Recent reports, even 
ones by HIS, project that there are up to 408,000 jobs 
available that can be held by African Americans and Hispanics 
by 2030 in the oil and gas sector. IHS estimates that 63 
percent of all job opportunities will be blue collar jobs. This 
is a truly bipartisan and energy technology neutral 
opportunity. We know that even the green sector is growing, and 
they are moving as well. And I think we need to take advantage 
of it.
    Hispanics in Energy over the last year has held community 
conversations across the country discussing this very 
opportunity. From that effort we have learned several things. 
General dissemination of energy opportunities to a variety of 
stakeholders is key.
    Recent research indicates that the number one obstacle to 
women considering employment in the oil and gas industry is 
lack of awareness and understanding of the job opportunities 
and career development available. Just by outreaching and 
making sure we are sharing the message, we can overcome this 
obstacle.
    Engagement of students at all levels from when they are 
young sprouts, early age in elementary and beyond, is critical 
to engaging them. When we think about it, of the 70,000 
undergraduate engineers, only 12 percent represent all under-
represented groups, and the pool of under-represented engineers 
gets even smaller at the graduate level. We must do something 
to change this.
    We also need to expand the network of engagement by energy 
providers and companies to create a pipeline of prospective 
networks, and this includes working with various groups--
veterans workforce development associations, other associations 
like our own--to create that partnership within that non-profit 
and public/private sector is key.
    The fourth principle is really thinking about pathways that 
need to be developed for different demographic groups and 
segments of the population. I recognize the Center for Energy 
Workforce Development that can attest that the education and 
skills needed are the same for everyone, but the best way to 
prepare individuals may in fact be different. And this may 
include different wrap-around services or other items to help 
ensure their success.
    The last principle I mention, and this is because I was a 
former regulator within the State of Michigan, and my question 
always was, we have to look at the data and analyze, just 
making sure everything that you do--and I know this is 
mentioned in the draft legislation--look at the analysis and 
create benchmarks. We need to assess the performance and also 
find and discover best practices so that what we are doing in 
one region can be replicated in other regions as appropriate. 
Those are key.
    In closing, I just really want to thank the committee for 
their work. If we do not take action today to improve the 
opportunities for under-represented communities in the 
workforce, we will be only adding to the current disparity that 
exists between the energy industry and the community it serves. 
The energy industry can be more reflective of the 
characteristics of our population, and by doing so, our whole 
economy will benefit. Thank you.
    [The prepared statement of Ms. Martinez follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   Mr. Whitfield. Thank you, and our next witness is Mr. 
Charles Wilson who is the Senior Reactor Operator Trainer and 
Managing Partner of CW Consulting Group. Thanks for being with 
us, and Mr. Wilson, you are recognized for 5 minutes as well.

                  STATEMENT OF CHARLES WILSON

    Mr. Wilson. Mr. Chairman, Ranking Member Rush, and the 
other members of the committee, my deepest gratitude.
    I am a 36-year-old black man who was raised in the South 
Side Englewood neighborhood of Chicago. I was born to a single, 
teenage mother, Elizabeth Wilson, and have two younger 
siblings, Natasha and Tabitha Wilson. My mother's parents died 
while she was in her teens. My father played no role in our 
lives. Today I don't know if he is dead or alive.
    We were poor. My family received SNAP benefits, and a small 
amount of money that my mother received afforded us a very 
humble apartment during a period in Chicago where the murder 
rate was nearly twice the rate it is today. Despite my 
impoverished circumstances, I matriculated through the Chicago 
Public School System and graduated from Lindblom Technical High 
School. In 1996, my joy of having survived to the age of 17 and 
graduating high school displaced my need to put together a 
long-term life strategy and plan of execution. That lack of 
having specific goals contributed to me becoming a teenage 
husband and father, ready to repeat the cycle that is 
commonplace amongst those in communities similar to mine. The 
walls of hopelessness and poverty waited to trap yet another 
tenant and disrupt the generational foundation necessary to 
break this destructive cycle.
    The birth of my firstborn, Erin Wilson, provided me an 
opportunity to be a man whose values and principles would be 
the polar opposite of the man responsible for my birth. That 
opportunity came in the form of a career serving in the U.S. 
Navy as a nuclear operator and submariner. My 6-year career 
provided me the base knowledge and unique skill set that was 
attractive and needed by the commercial nuclear industry.
    Exelon Nuclear gave me my first opportunity as an IBEW 
union chemistry technician and instructor. That opportunity set 
a trajectory which allowed me to obtain my senior reactor 
operator certification for training in December 2013. Since 
Exelon, I have worked at various commercial sites. Every job I 
have had in the industry has provided me with at least $100,000 
annual income. The new awareness of this life-changing career 
path inspired me to partner with my best friend, Dion Clark, of 
TCI Solutions, also a Navy nuclear operator and senior reactor 
operator certified trainer. Though Dion served as part of the 
Navy surface fleet, we won't hold that against him. Dion, a 
product of Chicago's South Side Robbins neighborhood, and I 
decide that we wanted to share the opportunity we had been 
given with our community, the under-represented, disadvantaged, 
and underserved. Our philosophy was simple: If we could make 
it, so could they.
    And here is how: We created the Legacy Initiative, a 
program that is rooted in the concept of teaching young people 
how to think critically. Our youth span from elementary through 
high school, and we challenge them to take a moment and ask, 
with this decision, is what I am about to gain worth what I 
might lose? We incentivize this intrinsic behavioral change by 
using ourselves as muses, making them aware of the opportunity 
and educating them on how to attain these opportunities.
    From 2008 until now, we have taught our character 
development and logic curriculum to more than 4,000 youth in 
Chicagoland, Arizona, and Pennsylvania. We have partnered with 
the Center for Energy and Workforce Development. We are now 
implementing the second phase of our strategy to pipeline these 
young people to those post-secondary institutions that have 2- 
and 4-year STEM degrees. These individuals in turn will become 
the qualified, skilled workforce that the energy and 
manufacturing industries need.
    This bill would make what were a series of chance 
encounters and good timing for me into a template for 
deliberate, rewarding strategies for those demographics I 
represent and more. As evidence, I offer that my daughter, who 
graduates in June from Kenwood Academy in Chicago, will be 
entering the historically black university, Howard, majoring in 
nuclear engineering. My oldest son, Willie Hampton, graduates 
next year and intends on obtaining his 2-year technology 
degree, getting a job as a nuclear operator, taking courses 
while he is utilizing his company's tuition reimbursement 
benefit, and then graduate with his undergraduate degree at the 
same time as his high school classmates. But he will have 2 
years of work experience, having enjoyed a six-figure income 
and having no debt.
    Our paths like the ones funded and supported by this bill 
ensures that my 5-year-old son, Charles Wilson II, and others 
in his generation don't have to experience poverty and can 
start to build the generational wealth and opportunity that 
evaded the generations before them. Thank you.
    [The prepared statement of Mr. Wilson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Whitfield. Thank you, Mr. Wilson, and I thank all of 
you very much for your testimony. I will recognize myself for 5 
minutes of questions, and then we will give everyone up here an 
opportunity.
    Many of you have talked about programs that are already in 
existence, and Ms. Brundage, with Shale NET and Mr. Jarvis with 
the NECA labor union apprenticeship programs in which you all 
are doing at the University of Houston. And I was wondering, on 
the Hispanics in Energy, do you all have a training program or 
a program that is helping workers get into the energy sector?
    Ms. Martinez. We don't have a training program, but we are 
doing the outreach. And what we found from our tour across the 
country last year was that in many ways, many of these programs 
are operating but they are not interconnected.
    Mr. Whitfield. They are not interconnected?
    Ms. Martinez. Right. So when we think about the engagement 
of many things, we know that there are different groups that 
are out there working and trying to aim towards this goal, but 
a lot of times the agencies and the entities are not 
communicating. And so, by part of this legislation, I do 
believe, is to make sure that you have that efficiency and that 
collaboration, because with that collaboration you can achieve 
better success.
    Mr. Whitfield. Yes.
    Ms. Martinez. So many groups work within their own silos. 
And so our goal is to try to help bring those things together 
and make those connections.
    Mr. Whitfield. And Mr. Wilson, you and Mr. Clark, in your 
program, do you all have training programs or is it more of a 
mentoring or how does it exactly----
    Mr. Wilson. Combination of both, Mr. Chairman. What we 
found in our time was that we have to change the behavioral 
process and thinking of the young people in some of these 
communities. We can't put them in front of an employer and they 
don't know how to make better decisions for themselves. So we 
wanted to instill things like self-concept and self-respect, 
accountability. And then with that, we can instill leadership. 
So that is the first part, is to change that behavioral 
attitude and decision making.
    Secondly, yes, we do want to then train them with those 
stackable credentials that the doctor mentioned and also the 
wrap-around services that Ms. Martinez also spoke to. So there 
is a collaborative aspect that has to come with this. So there 
is the training, not only with the mentoring but also with the 
skills that they need to--into the energy sector.
    Mr. Whitfield. So do all of you agree that this type of 
legislation would really be beneficial or does anyone have any 
suggestions on ways we could improve it? I am assuming all of 
you have read it.
    Mr. Jarvis. Mr. Chairman, if I could, our apprenticeship 
program addresses the exact things the other panel members are 
talking about today with our outreach programs. We have many 
programs where we reach into the communities for the 
underserved and undereducated and offer these career 
opportunities. And so we think this legislation speaks exactly 
to that, and we look for your support.
    Mr. Whitfield. OK. Dr. Krishnamoorti?
    Mr. Krishnamoorti. Thank you. We agree with that 
observation. There is no silver bullet. It has to be a 
combination strategy. We need to look at apprenticeship 
programs. We need to look at stackable credentials. We need to 
look at mentorship programs. And clearly, these programs have 
to be scalable, but in the end are individually focused.
    Mr. Whitfield. I think Ms. Martinez touched on a good point 
because it is awful easy to kind of be isolated out there and 
not have interconnection. So that is one. I am sorry, Dr. 
Brundage, did you want to make a comment?
    Ms. Brundage. Yes. Thank you. No, I agree with you, and I 
think, one of the things that I tried to reference in my verbal 
testimony was to try to target some of that federal funding in 
promoting those regional collaborations. And in the example of 
Shale NET, we set up a lot of hubs in areas where there is a 
lot of activity, and it began in the upstream side. But as we 
moved forward realized that there are more opportunities to 
spread that out into scale in the midstream and downstream. So 
it is taking that successful model and those stackable 
credentials and trying to build that continuum and that pathway 
for people to continue in being able to move into those types 
of career opportunities.
    Mr. Whitfield. Yes.
    Mr. Wilson. Mr. Chairman?
    Mr. Whitfield. Yes.
    Mr. Wilson. To also ask you the question about other areas, 
there are two other areas that I think that we should 
concentrate on as well and that is the wrap-around service 
aspect. Groups like the United Way, if we can utilize those 
non-profits that will take care of the things that children 
have to consider or youth have to consider, if you are 
wondering about eating, you are not going to concentrate on 
your math and physics. So if we have those things that sort of 
take those concerns off the table, I believe that will help 
strengthen that pipeline.
    Secondly, when they get to these schools, do they have 
adequate housing? That is something that I had one of my youth 
contact me about and say though he can get into the school, 
which was Linn State, he didn't know where he was going to 
live. So that is another concern is when they get there, how do 
we make sure they are taken care of when they get to these 
collegiate levels?
    Mr. Whitfield. Thank you very much, Mr. Wilson, and my time 
has expired. So Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. Again, I want to thank you, Mr. Chairman. This 
has been so far a very exciting hearing for me. Mr. Wilson, as 
I read your testimony and listened to your testimony, I 
couldn't help but be moved by your story which is a story that 
has been shared thousands and thousands of times among youth 
across the Nation. It reminded me also of my own life story, 
and I was also raised by a single mom with five children on the 
South and West Sides of Chicago. And I am a high school 
dropout. I dropped out of high school, but now I have two 
bachelor's degrees. So overcoming the odds is something that I 
am real familiar with. And so your story reflects and is 
parallel not only to my story but to others.
    I applaud you for not settling for the life that was right 
around you, the life that you observed day by day, getting up 
in the morning and going outside and seeing the negativism that 
is around you, and somehow you had to dream bigger and dream 
further and dream the impossible. And so I applaud you for not 
only dreaming the impossible but you believed in the impossible 
and believed that you can overcome the odds and make the 
impossible possible. So I really congratulate you. I know the 
path and the steps that you have gone through.
    And I just want to take a moment. Ms. Martinez, it is so 
good seeing you again. We were on the same panel some months 
back, and welcome. But Mr. Wilson, in your testimony you stated 
that success came from unexpected and unplanned manners. Tell 
me what did you mean by that? Explain that more. How do you 
think that provisions of this bill can help other young men and 
young women through real-life conditions and help them to 
realize that similarly evasive but real nearby American dream 
if we only had the courage to step out? How do you think this 
bill will assist in that manner?
    Mr. Wilson. For me, it is important for me to think about 
the fact that there is more, there is more to it. And sometimes 
it is just a matter of exposure. When I was in Chicago and 
those neighborhoods, I wasn't exposed to anything. I could only 
see what was in front of me, and I didn't have many role models 
around for me to see what was possible. So when I speak to the 
unexpected, I didn't script this. I spoke to my mother the 
other day, and I said who would have thought in this small 
bedroom on 56th and Hermitage that I would be sitting here in 
front of Members of Congress? That is what I mean. It is not 
about where you are from. It is are you going to use it as a 
crutch or are you going to use it as fuel? And once you are 
exposed, once you have access, I believe that these young 
people that we are talking about, they will see what they need 
to become. We will incentivize that behavioral change. We will 
see that there is something to lose. And when you feel like 
there is something to lose, it changes your behaviors.
    So for me, that is what did it. I looked at my daughter, 
and I did not want her to have to repeat the cycles of not 
having a father in her life. He became, my father became, my 
fuel. If I do the opposite of what he does, he has given me my 
blueprint for me to be successful and hopefully raise 
successful children. And I want to speak to a legacy. This is 
what it is about for me. My children saw me and how I did what 
I did, and now their efforts are deliberate. They are planning 
it. It is not happenstance, which is what happened for me. If I 
didn't have a friend, Brady Fox, that went to the Navy and 
said, hey, do you want to come? I looked around. Why not join 
the Navy? And with that, I was selected to be a part of the 
Navy Nuclear Propulsion Program, and I am able to now say that 
that gave me the foundation that I have right now. And with 
these institutions, these educational opportunities we have 
now, this can now again be another pathway that wasn't expected 
and now exists. And I believe this bill will allow more of 
these type of stories to again be delivered.
    Mr. Rush. In a similar way, I dropped out, and I was 17 
years old on my next birthday which was about 3 months later. I 
pleaded with my mother to sign. Let me go into the service. 
Three of my friends from the neighborhood, two of them went to 
the Marines and I went to the Army. And that is what gave me 
the wherewithal and to turn my life around. So again, parallel 
circumstances.
    Thank you so very much. I yield back, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman. Let me continue with 
you, Mr. Wilson. You have a compelling story. I really 
appreciate hearing it. And you went in the Navy, and that was 
the key. What were your skills before you went in and how was 
the Navy effective in changing your skill level?
    Mr. Wilson. My skills from an educational standpoint came 
from Lindblom High School. It was a technical high school. And 
it was very rigorous in the sciences and the math. I was 
unaware that I would need to use algebra or understanding what 
velocity and force and anything meant. And it is funny. There 
is an exam that is required once you take what they call the 
ASVAB for the military. I was then selected to take this 
nuclear entrance exam. I recall one of the questions talking 
about speed, and it happened to be something I paid attention 
to with my teacher, Mr. Robinson, in physics. I needed a 50 to 
pass, and I had a 52. And there were five of us that took it, 
and I was the only one that actually passed. And when I looked 
around, they took me into a room and they said, we want to talk 
to you, Charles. I said, what is that? You are the only one 
that passed. And I looked at people who were college educated 
around me. They were speaking about this nuclear program as if 
it was something that they knew that they were going to get. I 
looked around and I was the only one that passed.
    So I would say that that time in high school, that 
education, that math and science focus, is what gave me the 
foundation. Any other skills came from just truly survival, 
being in Chicago. And I was a pizza delivery guy. I don't know 
if that had anything to do with it.
    Mr. Pitts. What were the key components? You have a real 
compelling story. I want to drill down a little bit. What are 
the key components to your behavioral change?
    Mr. Wilson. My mother first. Elizabeth Wilson represents 
fortitude, strength, and more importantly resiliency. You have 
to understand, a teenage mother having three children and not 
planning her life to be that way and not having her own parents 
to fall back on because both of them died while she was a teen.
    And so she literally was trying to write the book as she 
was moving forward. She inspired me. She gave me the belief in 
myself as well. She encouraged me to be free. I used to enjoy 
bringing As home to her because she smiled, and that inspired 
me to want to do that more.
    When I got to high school, my classmates, watching how they 
got up every day to come to school, despite the odds, gunshots, 
three or four different gang neighborhoods that we would walk 
through, and I saw them come every day. And there was a joy to 
come to school with everyone from Lindblom. Those things, that 
relationship, is what caused me to say I want to do more. I 
want to do better than what I am seeing.
    Mr. Pitts. Now, in talking about working with people who 
need a second chance, how do you teach and how do they 
emphasize the right character qualities for behavioral change 
to get them so they do show up on time, you know, that they are 
the type of employee that employers want to hire. Would you 
develop that a little bit?
    Mr. Wilson. I believe the first thing is we have to be 
transparent and honest about what opportunities exist. Very 
many times we speak very vaguely about what an opportunity is. 
So someone from let's say my neighborhood, when I would go 
speak to the young people that we had in Chicago and other 
places, I would literally take them my paycheck, and I would 
pass it around and I would tell them to look at the number on 
my paycheck and let them see me tangibly and give my story and 
say I am nothing but you. There is no magic pill except focus 
and having specific goals because after you have these specific 
goals, the map to get there will lay itself out.
    So I think when you are honest and transparent--the other 
thing is you have to be very transparent about your errors. We 
typically try to gloss over the errors and only get to those 
good things about us. So being transparent is what allowed me 
to now have people that trusted me, and when I give them now 
these suggestions, they will take it for face value initially, 
and then when they see the results, they are bought in. So it 
actually becomes intrinsic because I first show them that it is 
possible, and then secondly, here is what it takes to get there 
and then they will believe it.
    I think that is what it is. All people need is an 
opportunity, and if they see that it is possible and they see 
someone in front of them that looks like them that can speak to 
and articulate a message for them that is palatable, I think 
they will get it from there.
    Mr. Pitts. And you are obviously teaching that to your 
children so you can replicate success.
    Mr. Wilson. That is correct.
    Mr. Pitts. You are a real inspiration. Thank you very much. 
My time----
    Mr. Wilson. Thank you, Mr. Pitts.
    Mr. Pitts [continuing]. Has expired.
    Mr. Whitfield. I wanted to make an announcement that we 
anticipate that there will be votes on the floor at about 11:15 
or 11:20. And of course, we have 15 or 17 minutes to get over 
there. I think if we break for these votes, a lot of people 
will end up not coming back. So would you all object if 
everyone was given 3 minutes for questions? That way we would 
have maybe an opportunity for everyone to ask questions. Is 
that suitable with everybody? OK. Then Mr. McNerney of 
California will be recognized for 3 minutes.
    Mr. McNerney. I enjoy being the first one with 3 minutes, 
Mr. Chairman. No, I want to thank the chairman and the ranking 
member for their work on this and the panelists. They have very 
good testimony. We have the Labor Statistics' unemployment rate 
for African Americans at 10 percent, more than twice that for 
whites. Hispanics, almost as bad, some of the statistics that 
Ms. Martinez raised. And then on the other hand, we have all 
these opportunities in the energy industry. Solar industry grew 
86 percent since 2010. Wind industry, 73,000 full-time workers. 
Energy efficiency, 1.3 to 1.9 million new jobs by 2050. So we 
have it and we have opportunity. What are we going to do about 
it? Well, we have some ideas up here on the panel. I thank you 
very much for that.
    Dr. Brundage, I am very excited by Shale NET. I haven't 
heard anything about it before. I am going to ask my staff to 
get a copy of a description of that, see how applicable that 
would be. Could you give me some idea how Shale NET is funded?
    Ms. Brundage. Yes, absolutely. Right now I mentioned in the 
verbal testimony it was funded by the Department of Labor. a 
TAACCCT Round II grant, which was a capacity-building grant to 
help with infrastructure. This particular grant does not pay 
for tuition. On the short-term workforce side, we have these 3-
week programs, sort of like boot camps, and we have active case 
managers that help the students understand the expectations and 
the culture, the work environment. We start classes early, we 
end later, so that they have a feel for what the expectations 
are, and we have been able to raise local dollars through 
Pennsylvania's Act 13 and to help with scholarships and also 
through corporate engagement. Chevron has pledged $460,000 for 
the initiative over the next several years. And so we are 
trying to help offset some of that tuition because unemployed 
and underemployed folks, you know, if they don't have access to 
those dollars, it is difficult.
    Mr. McNerney. OK. Thank you. Mr. Jarvis, you said the 
government should promote apprenticeships. Do you have any 
ideas on how that should be done?
    Mr. Jarvis. By supporting apprenticeship programs through 
the different grants that are available, and by supporting our 
trade groups, it allows us to do more outreach into the 
community. I am also moved by Mr. Wilson's story. I have many 
employees that work under me that have come up through our 
programs, outreach programs, and some of the other questions 
about what does it take to make people understand these 
opportunities and what skills. We teach life skills, things as 
simple as you have to get to work on time, you have to show up 
every day. Our outreach programs teach those things first, 
which makes these people, as they come into our apprenticeship 
programs, successful in the program. If you can't do those 
things----
    Mr. McNerney. Well, I have been to the YouthBuild program 
in my district, and IBW is there promoting apprenticeships. So 
that is good. I would like to ask Mr. Wilson a question, but I 
have run out of time. So I will yield back.
    Mr. Whitfield. Well, thank you, and they called this vote a 
lot earlier than we thought. They have already called the vote, 
but at this time right now, the gentleman from Mississippi, Mr. 
Harper, for 3 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Thanks to each of you 
for being here on a very important topic, and I, too, would 
like to say, Mr. Wilson, thank you for the inspiring story. And 
I am not one who wants to brag on my academic accomplishments, 
but I did graduate in the top 100 percent of my class. So I 
wanted to go ahead and throw that out. It was close, too, by 
the way.
    Mr. Jarvis, you talked about the importance of having a 
flexible workforce available to adapt to emerging trends. Can 
you give me an example of what you mean when you say it is 
unnecessary and short-sighted to train someone in a single 
technology?
    Mr. Jarvis. Yes. Thank you. We train electricians to be 
able to do all sectors in the electrical industry so a very 
common example today is the solar industry. There are groups 
that believe that we should be training a solar worker which is 
just one small piece of being able to do electrical work. Our 
5-year apprenticeship program teaches a career opportunity. 
Markets change. The solar industry will change. Our training 
program trains a person for a lifelong career to be able to 
earn not only top wages but top benefits as well. So you need 
to have a diverse training that takes a lot more than just one 
sector in the energy industry in our opinion.
    Mr. Harper. And if you do that, whether we call it cross-
training or giving them the different options here, what does 
that do as far as the additional time needed for the training 
program?
    Mr. Jarvis. Well, the training program that we have is a 5-
year program, but you work as you----
    Mr. Harper. Within that curriculum for the 5 years, OK.
    Mr. Jarvis. Correct.
    Mr. Harper. Great. Thanks. I will yield back in the 
interest of time, Mr. Chairman.
    Mr. Jarvis. Thank you.
    Mr. Whitfield. Thank you, Mr. Harper. Mr. Loebsack, you are 
recognized for 3 minutes.
    Mr. Loebsack. Thank you, Mr. Chair, and our ranking member. 
This really is a really great opportunity to hear from you 
folks. It has been kind of an eclectic panel I think to say the 
least, a lot of different things that have been mentioned here.
    I might ask just one question. I do want to just make some 
comments about workforce development more generally, and I do 
want to kind of throw a question at you folks that may be 
unfair and probably should be directed more at my colleagues 
and as we work through this bill and do what we can to make it 
better eventually. But I was on the Education in the Workforce 
Committee for 8 years, and we dealt with a lot of these issues 
on that committee. We passed the Workforce Innovation 
Opportunity Act last year which was the reauthorization of the 
Workforce Investment Act. There is a huge overlap between what 
we are talking about today here with respect to the Department 
of Energy and the various things that have been talked about 
today and what the Department of Labor does. And I know the 
Administration is trying to interface some of the agencies and 
what they do.
    And again, Mr. Chair and Ranking Member, this is something 
I would like to be working with you folks on down the road, 
sort of how can we get some of these agencies to talk to one 
another and work together and streamline some of these 
programs, maybe combine some of the efforts if possible? But I 
do want to ask, and it is kind of an unfair question, I admit, 
to all of you, because you are nodding. If you will, Doctor, 
any thoughts about how we might be able to do that instead of 
reinventing the wheel every time, having one department do 
something, have another department do something that might be 
similar to what that department is doing. Any thoughts about 
that at all? I know it is throwing you folks for a loop here, 
and maybe I am doing the same thing to my colleagues.
    Mr. Wilson. Is there a way to make effectively a liaison 
within each department that is meant to sort of see what the 
overlaps are----
    Mr. Loebsack. I think that would be a great idea.
    Mr. Wilson [continuing]. With the Department of Commerce, 
with the Department of Labor, where there is a person that 
looks and sees, OK, what active efforts do you have?
    Mr. Loebsack. Right. And the Department of Energy perhaps--
--
    Mr. Wilson. Exactly.
    Mr. Loebsack [continuing]. In the states.
    Mr. Wilson. Then they all just effectively maybe do like a 
sit-down once a month or whatever any new legislation that 
comes out specifically for their groups.
    Mr. Loebsack. Right.
    Mr. Wilson. Is there a way to have maybe a liaison or 
person----
    Mr. Loebsack. That is a real possibility.
    Mr. Wilson [continuing]. To reach out----
    Mr. Loebsack. Thank you, Mr. Wilson. I appreciate that 
because again, there are going to be a lot of things. Yes, 
Doctor?
    Mr. Krishnamoorti. I would like to add there are modes of 
operations where there are collaborations between agencies, 
interagency collaboration. Interior and Energy collaborate, for 
instance----
    Mr. Loebsack. Right.
    Mr. Krishnamoorti [continuing]. In the off-shore space. And 
that makes a big difference in being able to double-up training 
programs for off-shore workers. Similar things can be done with 
Labor. They have the data. Energy needs the data in order to 
actually bridge that skill gap.
    Mr. Loebsack. Right. I think that is great. We have a lot 
of community colleges in Iowa, and we have got a lot of 
connections between the community colleges and the wind energy 
program for example, too, and we can do more with populations 
who are under-represented in these areas. I have no doubt about 
that.
    And so I am going to look forward to trying to find a way 
to interface these different departments and the different 
programs so we can move forward on these issues. And my time is 
up. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The chair recognizes the gentleman from West 
Virginia, Mr. McKinley, for 3 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. I had probably 5 
minutes of questioning. We are going to try to cut it back down 
to three. The first observation I had about this whole issue--I 
was really looking forward to be educated about this, and I 
think some of you have touched on it. But the primary issue is 
about rural America. I think we struggle. Coming from West 
Virginia in a small community is how do we have an educated 
workforce, ready for manufacturing, energy, when we don't have 
a critical mass? So I am applauding--what we did last year in 
the last Congress, we introduced a bill. It was 3524 that tried 
to focus funds going into economically deprived communities to 
help out, to plus them up some in the grants and programs for 
education. I think we ought to be looking at that as well. I 
don't know whether any of you are familiar with that bill that 
was introduced last year, but I know that Tracy, you got 
something going at Penn College that is also at Pierpont where 
we have a training program there for Shale NET.
    Ms. Brundage. Correct.
    Mr. McKinley. Can you explain some of the advantages of how 
that has helped out? Because there at Fairmont is a small 
community that is struggling. So this program may be helpful. 
Can you share a little bit about some of the advantages and how 
we might be able to spread that broader for other rural 
communities?
    Ms. Brundage. That is an excellent question. We have had a 
lot of discussion about that within the consortium. Pierpont 
recently became an affiliate of Shale NET. So they are kind of 
a newcomer to the scene, and they are beginning to offer 
training there because of our relationship with Chevron wanted 
to have a hub in West Virginia to be able to have this 
consistent training so that people, you can have that 
consistency flexible program to meet industry needs.
    Your question about--I think it is important to be able to 
scale these, and I think I talked a little bit about the 
stackable credential model and how that model is mobile and can 
be moved to other locations depending upon the geography. If 
they didn't want to do the training in the upstream side, you 
can target it to other sectors of the energy industry. The 
model with the stackable credentials and the various pathways 
and continuums really work to make sure that you have that 
consistent career pathway for individuals to move into.
    So I don't know if that answered your question, 
specifically?
    Mr. McKinley. Well, as much as how we just need to keep 
going, are you familiar at all with the bill that was providing 
grants for economically depressed areas? Were you familiar with 
that last year?
    Ms. Brundage. No.
    Mr. McKinley. I would like to get your feedback from that, 
from an academic standpoint or so, how that might work. It was 
3524 during the last Congress. And see whether or not there are 
some advantages of us being able to focus on economically 
deprived areas, particularly those in rural America. Thank you 
very much.
    Mr. Whitfield. Maybe you could look at that, and then Mr. 
McKinley's staff could be back in touch with you----
    Ms. Brundage. Absolutely.
    Mr. Whitfield [continuing]. To get your views. At this time 
I would like to recognize the gentleman from Texas, Mr. Green, 
for 3 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I want to thank our 
panel again. In fact, Ms. Brundage, our Natural Gas Caucus a 
couple of years ago had a hearing in Williamsport, 
Pennsylvania, at the facility there, talked about it. And 
coming from Houston, I was surprised to see the technology in 
the middle of Pennsylvania that we are actually doing at the 
University of Houston in East Harris County, our community 
college. So thank you.
    Ms. Brundage. I remember you said a few words. I was in the 
audience when you were there.
    Mr. Green. Yes, great facility.
    Ms. Brundage. Thank you.
    Mr. Green. Dr. Krishnamoorti, as I stated earlier, I feel 
like Texas and Pennsylvania are doing a lot of things in the 
energy industry, but what steps has the University of Houston 
taken to create the outreach and provide access to the 
different communities to provide information about energy jobs? 
I have the College of Engineering in our district, and our 
district is 70 percent Hispanic, Mexican American. You have to 
reach out to those high schools in those communities there to 
provide that training.
    Mr. Krishnamoorti. Thank you so much, Congressman Green. 
The Energy Institute High School is a new high school close to 
the university, within a mile from the university. Seventy 
percent of the students there are Hispanic, 15 percent of them 
are African American, and we have got an active collaboration 
with them. We work with them developing curriculum. We share 
with them labs at the University of Houston with them. But also 
we are able to send our students, our undergraduate students 
and graduate students as peer instructors in that school. And 
that makes the biggest difference for them, having role models 
who can come into the schools, show them by example. As Mr. 
Wilson mentioned, examples of people who have succeeded, who 
have learned and developed.
    We have also taken the same strategy, worked with the whole 
range of community colleges, nine community college systems in 
the Greater Houston area, 60-plus community colleges across the 
State of Texas, all of them focused on taking these stackable 
credentials, finding ways of actually scaling them and 
deploying them.
    Mr. Green. I only have a few seconds left. Can you tell us 
how can this bill and the Department of Energy further the 
goals of the universities and the colleges and community 
colleges that are already engaged in these projects? Is there 
anything we could do that would make this bill better?
    Mr. Krishnamoorti. I think the bill is right on the mark in 
terms of helping the universities work with community colleges 
and K through 12 education. I think getting that pipeline set 
up is the critical piece, and this bill addresses that in a big 
way. Thank you.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman from Ohio is recognized 3 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Dr. Brundage, thanks 
largely to the oil and gas industry, coupled with programs like 
Shale NET that is in our state there at State College, 
unemployment in shale counties in my district in Eastern and 
Southeastern Ohio has fallen 66 percent since 2010. In fact, 
these shale counties are the economic impacts, the positive 
economic impacts. So the shale plays--that is what is driving 
the unemployment rate down for our entire state.
    And because of this, we have got to continually look for 
opportunities like Shale NET to prepare our students for the 
jobs that are here today and that are coming tomorrow.
    Quick question. If the goal of Shale NET is to increase 
capacity in terms of qualified workforce to meet the needs of 
the industry, how successful in your view has Shale NET been? 
Can you give us some specifics?
    Ms. Brundage. Absolutely. I think many factors contribute 
to the success of Shale NET, and I think the successes are 
strengthened by the knowledge of partners. It is the strong 
partnerships to place these qualified candidates with employers 
and families sustaining careers. But we have the robust 
selection, assessment process in place, evaluating student 
candidates--all of these things can be transferred to other 
areas, other institutions.
    When we look at a success measure for employers is the 
retention in employment a year after placement, which is 
demonstrated by participation in Shale NET. And with that 
return on investment, we almost take on some of the role of on-
boarding because we are helping to vet those people and have 
them understand the expectations and give them the appropriate 
skill sets so that they know what to expect as they move into 
those jobs, hopefully retaining and allowing them to have 
greater career mobility.
    Mr. Johnson. Great. Well, I appreciate that. I am going to 
be respectful, Mr. Chairman, and yield back the remainder of my 
time.
    Mr. Whitfield. Thank you very much. Mr. Sarbanes, you are 
recognized for 3 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank all 
of you for your testimony. Ms. Martinez and Mr. Wilson, I 
wanted to ask this question. Obviously in the STEM arena we 
want to make sure that the academic curriculum that is offered 
in the classroom for young people in that K-12 space is as 
rigorous and holistic as it can possibly be. But I am also 
interested in the opportunities to connect young people with 
the experiences outside the classroom, in a sense, get them out 
of the classroom in various ways so maybe their horizons are 
broadened and they can see the connection to that pipeline 
opportunity that exists.
    So if each of you could just very briefly comment on that 
idea of how we get young people in the K-12 space out of the 
classroom and connected to these career horizons, that would be 
helpful.
    Ms. Martinez. Absolutely. And that was an excellent 
question. In Michigan, there are certainly some schools that 
work and partner with various companies, especially in the 
Detroit region, and in those areas they do have mentorship and 
sort of on-the-job activities that are happening. Part of that 
is they are getting the students out of the high schools and 
out of the middle schools and doing sort of a 1-day job 
shadowing, job mentoring so that they actually can see what is 
happening. DTE Energy, Marathon Oil, others are taking part in 
that opportunity, so kids are able to see that real hands-on 
opportunity and actually get that job shadowing while they are 
in school, and they are also able to see that just as you can 
say it, really who that person is and who they are. And it 
gives them a real goal to achieve.
    Mr. Sarbanes. Thank you.
    Ms. Martinez. We find those have been successful.
    Mr. Sarbanes. OK.
    Mr. Wilson. For example, specifically in Phoenix, we have 
created a program called Legacy I-3, and its purpose is to 
partner with these community colleges and some of these 
apprenticeship programs and such. There is a specific 
partnership that is created with APS in Palo Verde Nuclear 
Generating Station, and they have created an ambassador 
program. So what they do is they actually come to the client 
schools that we have in Phoenix, in the Phoenix Union District, 
and takes the students from the class to different job sites so 
that they are exposed to seeing that this is really what we are 
telling you theoretically in the classroom. So I think that is 
an example. If you partner with these member companies, they 
will have volunteers and those within their organizations that 
would love to come and then bring those students to their 
worksite.
    Mr. Sarbanes. Great. Thank you. I yield back.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. I want to thank you 
and also Ranking Member Rush for hosting this hearing today. I 
also want to thank each of you for your testimony. Given the 
timing and how little time we have left to vote, I am going to 
commend each of you for the jobs that you have done. I commend 
you for the quality of your testimony. Mr. Wilson, all I can 
say is wow. What an awesome piece of testimony. Ms. Martinez, 
thank you for what you are doing.
    I think given the lack of time we have, I will just submit 
my questions in writing. Thank you.
    Mr. Whitfield. Well, thank you very much, and I am sorry we 
were interrupted by these votes, but I think everyone had an 
opportunity to ask some questions. And thank you all for being 
with us, and we look forward to working with you as we try to 
put this package together in an effective way. We will keep the 
record open for 10 days for any additional submissions, and 
thank you once again. And we will adjourn today's hearing.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    I am very excited about the ``Title II: 21st Century 
Workforce'' discussion draft that we will be examining at this 
hearing. I am even more excited about the bipartisan process 
that led to it as well as the other titles in the new energy 
bill that this subcommittee is working on. I want to 
particularly thank Bobby Rush, Gene Green, Bill Flores and 
Richard Hudson for their efforts to collaborate on a positive 
energy agenda on which I hope we can all agree.
    Creating jobs remains my number one priority as it does for 
most of us, and America's energy boom offers a major 
opportunity to do so. The good news is that the energy sector 
continues to create a wide variety of jobs, and even if the 
drop in oil prices has temporarily reduced some types of 
upstream positions, there are still many others like those in 
manufacturing that benefit from affordable domestic energy 
prices. Manufacturing is making a comeback in Michigan and 
across the country, and skilled workers are now in high demand.
    The energy and energy-related jobs are there to be filled, 
but job training has struggled to keep pace. There is often a 
disconnect between the young men and women ready to launch 
their careers and the skills necessary to take advantage of the 
opportunities in energy.
    The 21st Century Workforce bridges the gap. It takes the 
existing Department of Energy job training programs and 
redirects them towards the market needs of today and the 
future. One important component of this discussion draft is to 
make sure that more women and minorities can acquire the skills 
needed to participate in America's energy and manufacturing 
boom.
    Affordable and plentiful supplies of American energy offer 
long term employment opportunities for millions seeking well-
paying careers, and the 21st Century Workforce discussion draft 
helps make sure that these opportunities are available for all 
who seek them.
                              ----------                              


                 Prepared statement of Hon. Bill Flores

    Mr. Chairman,
    Thank you for holding today's legislative hearing on the 
21st Century Workforce.
    I strongly support promoting this important issue along 
with Mr. Hudson, Ranking Member Rush, Mr. Green, and the rest 
of my colleagues on the committee. Our domestic energy security 
greatly improved as a result of the American energy revolution; 
and we now lead the world in oil and gas production. Increased 
American energy security translates in to improvement in our 
own economic and national security. The Energy Information 
Administration forecasts increased energy production through 
2020, and that will result in increased demand in the 
workforce. Meeting these growing needs in all aspects of the 
energy industry, including oil and gas, nuclear, coal, and 
renewables provides hardworking Americans significant 
opportunities for well paying jobs.
    This bill ensures that we have the skilled workers to 
continue to fuel our American energy revolution for years to 
come.
                              ----------                              


                 Prepared statement of Hon. Joe Barton

    Mr. Chairman:
    I am pleased that we are beginning our discussions with an 
area I believe we can all embrace and that is jobs and the 
economy. My colleagues Mr. Flores, Mr. Green, Mr. Hudson, and 
Mr. Rush have worked in a bipartisan manner to bring this issue 
to the forefront.
    Earlier this week it was reported in a Wall Street Journal 
blog that while the US economy continued to add jobs last 
month, states that rely heavily on the oil industry experienced 
significant cuts.
    <bullet> Texas has lost 25,400 jobs
    <bullet> Oklahoma has lost 12,900.
    <bullet> North Dakota has lost 3,000.
    <bullet> All told, 31 states and Washington, D.C., saw a 
drop in employment in March, and only 18 states saw employment 
rising.
    Michael Feroli, the chief U.S. economist for J.P. Morgan 
Chase JPM, said Monday that the scale of job losses in Texas is 
so large that the state may be in recession.
    The purpose of the bill before us is to direct the 
Secretary of Energy to establish and carry out a comprehensive 
program to improve education and training for energy and 
manufacturing-related jobs in order to increase the number of 
skilled workers trained in energy and manufacturing fields. 
That is a great goal.
    Of particular interest to me are the provisions creating a 
clearinghouse because this could potentially streamline the 
process for those seeking training and help eliminate 
duplication. In light of the recent downturn in my home state, 
I also strongly support the provision that directs the 
Secretary to give special consideration to increasing outreach 
to unemployed energy workers.
    Although it is not the subject of this hearing, I do 
believe a have part of the solution to the downturn in jobs. I 
have proposed legislation to get rid of the ban on crude oil 
exports. I believe that simple act alone could greatly help our 
producers reverse the trend of job loss. I'm happy to discuss 
this with anyone who would like to.
    Again, I appreciate all the work that has gone into this 
draft legislation and I look forward to working on the entire 
package of the Architecture of Abundance.

                                 [all]
</pre></body></html>
